                                         March 23, 2007




MEMORANDUM TO:              Chairman Klein



FROM:                       Hubert T. Bell /RA/
                            Inspector General


SUBJECT:                    AUDIT OF NRC’S NUCLEAR MATERIAL EVENTS
                            DATABASE (OIG-07-A-11)


Attached is the Office of the Inspector General’s (OIG) memorandum report titled, Audit
of NRC’s Nuclear Material Events Database.

The audit disclosed that:

In the context of the review, OIG found that in general the NMED system works as
intended and is a benefit to the agency. However, during the review, auditors found
some concerns with the Fuel Cycle Nuclear Material Events Database (FCNMED).
Without formalized guidance and appropriate oversight, FCNMED lacks the internal
control needed to achieve the system’s objectives. FCNMED should be consistently
reviewed for data pertaining to trending analyses, operational metrics, and regulatory
analyses. In addition, many NRC staff members are not aware that FCNMED exists
and are not accessing its data. Although the effect of having an informal FCNMED
system may not be critical today, it could become an issue should the nuclear industry,
including the fuel cycle program, grow as it is predicted to do.

If you have any questions, please contact Stephen D. Dingbaum, Assistant Inspector
General for Audits, at 415-5915 or me at 415-5930.

Attachment: As stated

cc:   Commissioner McGaffigan
      Commissioner Merrifield
      Commissioner Jaczko
      Commissioner Lyons
      M. Johnson, OEDO
                                         March 23, 2007




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: AUDIT OF NRC’S
                           NUCLEAR MATERIAL EVENTS DATABASE
                           (OIG-07-A-11)


This memorandum report is a result of OIG’s audit of the Nuclear Material Events
Database (NMED). In the context of the audit, OIG found that in general the
NMED system works as intended and is a benefit to the agency. That is, NRC is
using NMED as a data repository for licensee materials events.

However, during the review, auditors found some concerns with a related
system, the Fuel Cycle Nuclear Material Events Database (FCNMED). Without
formalized guidance and appropriate oversight, FCNMED lacks the internal
control needed to achieve the system’s objectives. Furthermore, through
January 2008, NRC has budgeted about $52,000 in contract dollars for
FCNMED, but the agency is not fully using the system to achieve the maximum
benefit for its money.

BACKGROUND

NMED contains a historical collection of information on the occurrence,
description, and resolution of events involving the use of radioactive materials in
the United States. NMED accommodates the sharing of material event data
submitted by Agreement States, non-Agreement States, and NRC licensees.
NMED provides users with search capabilities to analyze its data. NRC staff use
NMED data for a variety of reasons, including inspections, performance metrics,
and trend analyses. The Office of Federal and State Materials and
Environmental Management Programs is responsible for NMED. The agency’s
contractor, Idaho National Laboratory (INL), is responsible for data entry, coding,
                                                     Audit of NRC’s Nuclear Material Events Database



and quality control of the data. INL primarily obtains the data for NMED from
NRC daily reports (event notifications, preliminary notifications, and morning
reports), and licensee written reports of material events. In addition, INL may
also obtain data from inspection reports, investigation reports, and enforcement
action documents.

In 2004, NRC identified the need for a database specifically for Category 1 fuel
cycle facilities. 1 The agency reclassified information concerning events at these
fuel cycle facilities as Official Use Only on the basis that it constituted sensitive
unclassified information. At NRC’s request, INL removed events related to
Category 1 fuel cycle facilities from NMED. INL then created FCNMED, a new
database, modeled on NMED, specifically for Category 1 fuel cycle facility event
data. This new database was transferred to NRC so that staff could update
FCNMED with event data as it occurred. However, FCNMED was not updated
and in 2005, the task for maintaining the database was transferred back to INL.
Today, FCNMED is maintained separate from NMED and its data is not publicly
available. FCNMED contains about 200 records and is estimated to cost NRC
about $52,000 through January 2008. The agency’s intent for FCNMED is to
use it the same as NMED--to accommodate the sharing of material event data.

PURPOSE

The objective of this audit was to review the accuracy of the NMED database and
agency use of data currently reported, including trend analyses and event follow-
up. In conducting the audit of NMED, OIG also reviewed FCNMED with an
objective to determine if FCNMED meets the agency’s intent for the database.
This report focuses on OIG’s concerns with FCNMED.

FINDING

Without formalized guidance and appropriate oversight, FCNMED lacks the
internal control needed to achieve the system’s objectives. Management is
responsible for establishing and maintaining internal control to achieve the
objectives of effective and efficient operations. In this case, NRC staff should be
consistently reviewing FCNMED for data pertaining to trending, performance
metrics, and regulatory analyses. However, there are several conditions that
preclude FCNMED from being used as intended. Specifically,

    •   Many NRC staff members2 are not aware that FCNMED exists and are not
        accessing its data.




1
  Currently, there are only two Category 1 fuel cycle facilities, Nuclear Fuel Services and BWX
Technologies.
2
  Due to its sensitive nature, FCNMED will be available to a limited number of users.


                                                2
                                                  Audit of NRC’s Nuclear Material Events Database



    •   The FCNMED data available to NRC staff is updated on a monthly basis.

    •   There is limited assurance that the FCNMED data is complete.

Because there are no written FCNMED procedures3 for NRC staff and no one is
officially the database content coordinator, NRC’s trending, performance metrics,
and regulatory analyses may not include all pertinent data. As a result, NRC
could be missing precursors to significant issues. Although the effect of the
FCNMED system not having formalized guidance or appropriate oversight may
not be critical today, it could become an issue should the nuclear industry,
including the fuel cycle program, grow as it is predicted to do. Therefore, it is
important that NRC formalize the FCNMED system to ensure that it has the
appropriate internal controls to successfully achieve the system’s objectives and
maximize the benefit of NRC’s contract dollars.

RECOMMENDATIONS

The Office of the Inspector General recommends that the Executive Director for
Operations:

        1.     Develop and implement written procedures for the operation of
               FCNMED to ensure that a mechanism is available for appropriate
               staff to share and access data on Category 1 fuel cycle facilities.

        2.     Appoint an official coordinator, responsible for the day to day
               oversight of FCNMED.

        3.     Conduct a quality assurance review of the FCNMED data to ensure
               that all pertinent data is included in the database.

AGENCY COMMENTS

At an exit conference on March 7, 2007, NRC officials agreed with the report’s
recommendations and provided editorial suggestions, which OIG incorporated as
appropriate.

SCOPE AND METHODLOGY

To accomplish the audit, the OIG audit team reviewed the Code of Federal
Regulations, Management Directives, the NMED contract, and other related
documents. The audit team interviewed officials internal and external to NRC.
NRC officials included senior managers and staff in the Office of Federal and


3
 NMED procedures exist and staff report they are applicable to FCNMED. However, the
procedures fail to acknowledge that FCNMED exists and many staff have not applied the
procedures to FCNMED.


                                              3
                                            Audit of NRC’s Nuclear Material Events Database



State Materials and Environmental Management Programs, the Office of Nuclear
Material Safety and Safeguards, and Region II. Interviews external to NRC
included officials from INL and an agreement state program.

This work was conducted from November 2006 through January 2007 in
accordance with generally accepted Government auditing standards and
included a review of internal controls related to the objective of this audit. The
work was conducted by Anthony Lipuma, Team Leader; Sherri Miotla, Audit
Manager; Dan Livermore, Technical Advisor; James McGaughey, Senior Analyst;
Rebecca Underhill, Analyst; and Andrea Ferkile, Analyst.

cc:   Chairman Klein
      Commissioner McGaffigan
      Commissioner Merrifield
      Commissioner Jaczko
      Commissioner Lyons
      M. Johnson, OEDO




                                        4
